<html>
<title> - CAN SMALL HEALTHCARE GROUPS FEASIBLY ADOPT ELECTRONIC MEDICAL RECORDS TECHNOLOGY?</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]



 
 CAN SMALL HEALTHCARE GROUPS FEASIBLY ADOPT ELECTRONIC MEDICAL 
                         RECORDS TECHNOLOGY?

=======================================================================

                                HEARING

                               before the

            SUBCOMMITTEE ON REGULATORY REFORM AND OVERSIGHT

                                 of the

                      COMMITTEE ON SMALL BUSINESS
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                     WASHINGTON, DC, APRIL 6, 2006

                               __________

                           Serial No. 109-47

                               __________

         Printed for the use of the Committee on Small Business


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house


                                 _____

                 U.S. GOVERNMENT PRINTING OFFICE

28-571 PDF              WASHINGTON : 2006
_________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government 
Printing  Office Internet: bookstore.gpo.gov  Phone: toll free 
(866) 512-1800; DC area (202) 512-1800 Fax: (202) 512-2250 Mail:
Stop SSOP, Washington, DC 20402-0001



                      COMMITTEE ON SMALL BUSINESS

                 DONALD A. MANZULLO, Illinois, Chairman

ROSCOE BARTLETT, Maryland, Vice      NYDIA VELAZQUEZ, New York
Chairman                             JUANITA MILLENDER-McDONALD,
SUE KELLY, New York                    California
STEVE CHABOT, Ohio                   TOM UDALL, New Mexico
SAM GRAVES, Missouri                 DANIEL LIPINSKI, Illinois
TODD AKIN, Missouri                  ENI FALEOMAVAEGA, American Samoa
BILL SHUSTER, Pennsylvania           DONNA CHRISTENSEN, Virgin Islands
MARILYN MUSGRAVE, Colorado           DANNY DAVIS, Illinois
JEB BRADLEY, New Hampshire           ED CASE, Hawaii
STEVE KING, Iowa                     MADELEINE BORDALLO, Guam
THADDEUS McCOTTER, Michigan          RAUL GRIJALVA, Arizona
RIC KELLER, Florida                  MICHAEL MICHAUD, Maine
TED POE, Texas                       LINDA SANCHEZ, California
MICHAEL SODREL, Indiana              JOHN BARROW, Georgia
JEFF FORTENBERRY, Nebraska           MELISSA BEAN, Illinois
MICHAEL FITZPATRICK, Pennsylvania    GWEN MOORE, Wisconsin
LYNN WESTMORELAND, Georgia
LOUIE GOHMERT, Texas

                  J. Matthew Szymanski, Chief of Staff

          Phil Eskeland, Deputy Chief of Staff/Policy Director

                  Michael Day, Minority Staff Director

            SUBCOMMITTEE ON REGULATORY REFORM AND OVERSIGHT

W. TODD AKIN, Missouri Chairman      MADELEINE BORDALLO, Guam
MICHAEL SODREL, Indiana              ENI F. H. FALEOMAVAEGA, American 
LYNN WESTMORELAND, Georgia           Samoa
LOUIE GOHMERT, Texas                 DONNA CHRISTENSEN, Virgin Islands
SUE KELLY, New York                  ED CASE, Hawaii
STEVE KING, Iowa                     LINDA SANCHEZ, California
TED POE, Texas                       GWEN MOORE, Wisconsin

               Christopher Szymanski, Professional Staff

                                  (ii)


                            C O N T E N T S

                              ----------                              

                               Witnesses

                                                                   Page
Magruder, Ms. Joan, Vice President of Development and Planning, 
  BJC Healthcare.................................................     2
Normile, Dr. Christopher, Medicinae Doctor (Doctor of Medicine)..     4
Price, Mr. Jack, Vice President, Services, HIMSS Analytics.......     6
Gingrey, The Honorable Phil (GA-11), Congressman, U.S. House of 
  Representatives................................................    14

                                Appendix

Opening statements:
    Akin, Hon. W. Todd...........................................    20
Prepared statements:
    Magruder, Ms. Joan, Vice President of Development and 
      Planning, BJC Healthcare...................................    22
    Normile, Dr. Christopher, Medicinae Doctor (Doctor of 
      Medicine)..................................................    25
    Price, Mr. Jack, Vice President, Services, HIMSS Analytics...    30
    Gingrey, The Honorable Phil (GA-11), Congressman, U.S. House 
      of Representatives.........................................    37
Additional Material:
    Kasoff, Ms. Barbara, Women Impacting Public Policy...........    52
    Barnes, Mr. Justin, Greenway Medical Technologies............    59

                                 (iii)




 CAN SMALL HEALTHCARE GROUPS FEASIBLY ADOPT ELECTRONIC MEDICAL RECORDS 
                              TECHNOLOGY?

                              ----------                              


                        THURSDAY, APRIL 6, 2006

                   House of Representatives
    Subcommittee on Regulatory Reform and Oversight
                                Committee on Small Business
                                                     Washington, DC
    The Subcommittee met, pursuant to call, at 2:00 p.m., in 
Room 2360 of the Rayburn House Office Building, Hon. W. Todd 
Akin [Chairman of the Subcommittee] presiding.
    Present: Representatives Akin, Sodrel.
    Chairman Akin. The Subcommittee will come to order. The 
Ranking Member is trapped in another committee hearing, which 
is not surprising. We usually schedule about two or three in 
the same time period for anybody in any committee. So she gave 
us permission to go ahead and proceed with the hearing. She may 
join us a little bit later.
    I have a prepared opening statement here.
    First of all, I have already said this, but to everybody 
good afternoon. Welcome to today's hearing. It's entitled ``Can 
Small Healthcare Groups Feasibly Adopt Electronic Medical 
Records Technology.''
    I especially want to thank those of you who have traveled 
here from some distance. Two of our witnesses are from the 
congressional district that I am proud to represent. And so we 
are delighted particularly to have those of you who have made 
the trek up from the St. Louis area, we appreciate that.
    In my role as Congressman and Chairman of this Subcommittee 
I have had the opportunity to interact with many businesses in 
just about every industry. I talk to business owners and CEOs 
about the many challenges they face, both domestically and 
abroad and time and time again they state that the rising cost 
of health care is crippling their firms.
    Because many small businesses operate in slim margins, any 
increase in costs can turn a profitable business into an 
unprofitable one. The rising cost of health care is an 
important issue and there are many different voices in the 
public square advocating different approaches to offset these 
rising costs. Today this Subcommittee will focus on the 
electronic benefits derived through the adoption of 
technological processes. Is the adoption of electronic medical 
records technology feasible for small businesses, specifically 
small doctors' practices? We also hope to determine the 
challenges these small groups face in adopting such technology.
    There is little doubt that the adoption of electronic 
medical records can play an important role in increasing 
efficiency, reducing paperwork and redundancy and more 
importantly, reducing medical errors.
    According to the Department of Health and Human Services it 
is estimated that the introduction of health information 
technology can reduce healthcare costs by up to 20 percent per 
year. The Bush Administration has stated the importance has 
stated the importance of implementing electronic healthcare 
systems, and made it a priority.
    That said, doctors have increasingly faced higher liability 
costs, potential cuts in Medicare physician payments, and 
additional regulatory burdens resulting in a question as to 
whether smaller practices can afford to adopt this innovative 
technology.
    I look forward to hearing the testimony of the witnesses to 
learn more about whether small practices can adopt this 
technology.
     And because our Ranking Member is not here, I am not going 
to yield to her, but we will proceed immediately to our witness 
list. I have a very bad reputation in this Committee to keeping 
people on time in terms in making their statements. That way we 
get out on time, too. So the way we are going to do things will 
be I am going to take a five minute statement from each of you. 
Usually when there is other Committee members we save our 
questions until you get done with making your statements. Now 
my recommendation is that you can submit a more extensive 
written response which we will accept as part of the record. 
And so my recommendation because you have just five minutes, it 
is maybe almost better just to put your notes aside and just 
say the two or three things that you really want the Congress 
to be hearing about what you have to say on this subject. But 
if you feel a little bit more psyched out than that and you 
want to just read some of your notes, you can do that. But my 
advice is maybe just say hey this is what I think about the 
subject.
    So with that we'll start with our opening witness. Oh, they 
are trying to trick me here. They have got Jack first. I go by 
the order coming across. So we are going to start with Joan, is 
it Magruder?
    [Chairman Akin's opening statement may be found in the 
appendix.]
    Ms. Magruder. Magruder, yes.
    Chairman Akin.
    Joan, five minutes please.

           STATEMENT OF JOAN MAGRUDER, BJC HEALTHCARE



    Ms. Magruder. Thank you. Thank you, Mr. Chairman and 
Members of the Committee.
    My name is Joan Magruder, and I am pleased to be here today 
really to talk about a very innovative way we at BJC Healthcare 
are approaching the introduction of the electronic medical 
record.
    We recognize, as you said in your opening remarks, that 
technology has an incredible ability to transform and improve 
healthcare delivery and have a significant impact on the cost 
effectiveness of what we do. We also recognize that the timing 
of this is incredibility pivotal on, as the opening remarks 
confirmed, our physicians today are in a circumstance where as 
a small business, in and of themselves, the margins are slim 
and eroding. And in light of the malpractice issues and clearly 
the rising cost of healthcare, they really have two very 
pivotal role with the electronic medical record. One is as a 
self-employed business themselves is that the cost of labor and 
benefits of their own employees who is integral to them and, 
second of all is obviously providers. They ultimately are the 
enablers of this electronic medical record capability.
    First just a couple of comments about a context for our 
circumstance. BJC Healthcare, as you may know, is headquartered 
in St. Louis. We have about 13 hospitals, about $2.5 billion of 
revenue. For purposes of the electronic medical record the 
important aspect is that we have a very diverse geography, a 
very diverse patient population and we have an opportunity to 
serve a few rural markets as well as suburban and urban.
    Our goal ultimately clearly is to be a national leader on 
both patient advocacy, medical research and financial 
efficiency.
    Today, really, I come to you representing one of my 
responsibilities which is our BJC Medical Group. We have a 
couple hundred physicians that we employ through our 
organization in about a 225 mile radius. All of these 
physicians are in small office settings, generally three to 
four person situations. And we are working as we speak to roll 
out the electronic medical record to these physician offices. 
It will represent about 300,000 patients that we will be able 
to cover during this time. Almost 20 percent of those are in 
the rural markets. These patients really represent a cross 
section of subspecialties. Most or about two-thirds of our 
providers are primary care, but we really cross the entire 
specialty aspect.
    BJC has committed to a $8 million investment in the 
electronic medical record across these 200 providers. And our 
thinking is a couple of things.
    One is that we will be able to set up this project to 
provide connections to external as well as internal labs. So a 
lot of the electronic medical records you hear about today are 
actually in self-contained private offices. And one of the 
things that we feel responsible to do is to take that precedent 
and extrapolate it to interface it with the hospital 
connectivity. And so we have actually moved ahead choosing a 
product that is very centric to the physician office setting 
and we are going to support, underwrite if you will, the 
interfaces back to our emergency departments, our hospitals, 
etcetera.
    The benefit of that, obviously, from the perspective of the 
universal patient record is clearly to get the continuity of 
care not just outside the hospital, but all the way through to 
home care, post discharge, etcetera.
    In addition, we recognize there is a lot of unnecessary are 
being provided. There is a lot of avoidable emergency 
department visits, readmissions for circumstances where 
patients are put on contraindicated medications, and obviously 
that's a function of the fragmented healthcare system that we 
have today.
    So the ability to really roll this out across our 13 
hospitals enables us to advance what many of you have heard 
about, with is the shared records capability. You have heard of 
a portal, you have heard of sort of a regional health network 
at times. And this shared records capability allows us across 
these 13 hospitals to in fact for about 30 percent of the 
patients in our market, understand the entirety of care that 
has been provided and understand what really would have been 
the ideal patient care system.
    In addition, we feel strongly as was indicated as well 
about this interoperability issue. The concept of requiring the 
vendors to really have a product that really can transcend from 
one to another.
    Our vision ultimately is to take this prototype and create 
a community health portal that will allow multiple provides to 
access medical records and allow patients to view their medical 
records. We think that having records through the internet 
will, obviously, be very advantageous and promote from the 
perspective of education, advice, etcetera.
    In closing, we would say that BJC Healthcare is committed 
to the successful introduction of the electronic medical 
record. Our hope is that this will catalyze a regional health 
wide practice. As we move forward today in our conversations, 
we are anxious to talk about some of the obstacles from a cost 
and an implementation perspective which will enable the 
proliferation to occur.
    Thank you.
    [Ms. Magruder's testimony may be found in the appendix.]
    Chairman Akin. Thank you very much, Joan. And right on the 
five minutes. Appreciate that and your perspective and looking 
forward to asking some questions.
    Next we are going to go to Dr. Christopher Normile. And you 
are the doctor of medicine from St. Charles, Missouri, which is 
also part of my district. Good.
    Would you please proceed?

   STATEMENT OF DR. CHRISTOPHER NORMILE, AMERICAN ACADEMY OF 
                       FAMILY PHYSICIANS

    Dr. Normile. Mr. Chairman, fellow AAFP member 
Representative Christensen, and Members of the Subcommittee, 
thank you for the opportunity to provide testimony today.
    Chairman Akin. Could you get that mike and just sort of 
slide up a little closer there.
    Do you go by Christopher or Chris or--
    Dr. Normile. Chris will be fine.
    Chairman Akin. Chris. Okay. Thank you.
    Dr. Normile. I am a partner in a two physician practice in 
St. Charles, there are only two of us. We are independent, we 
are a small business. I am also a member of the American 
Academy of Family Physicians, one of the largest national 
medical organizations with more than 94,000 members.
    Chairman Akin. You are still dropping off. Could you pull 
that mike even a little closer there.
    Dr. Normile. Your Subcommittee's concern for physicians 
practices is well placed. We are small businesses with a 
significant impact economically on our communities. Family 
physicians and AAFP have been in the vanguard in promoting 
electronic health records and they have provided information 
that has supported 30 percent of family physicians adopting EHR 
so far.
    My job I think today was to give you my experience. And 
some time ago, say, in '95 I had a palm pilot and it became 
very apparent to me the power of these tools in improving 
medical care for patients. I convinced my partner to purchase 
an electronic health record, and we have been using it for two 
years now.
    Today on a typical day I will come in and electronically 
synchronize my laptop and take information from home and work 
that I have done at home and file it into our computer. I log 
onto an internet connection with the local hospital, put up 
that information on my hospitalized patients. I review labs, 
phone messages, all sitting at my desk in just a few minutes. 
My efficiency has improved in that regard.
    After office hours I dictate notes through a voice 
recognition software . I do not need to use transcriptionists. 
They cost us thousands of dollars anymore.
    In the near future we will communicating more and more with 
patients through the internet. And this will be another expense 
that we will have absorb.
    Currently the time I set aside for electronic 
communications with patients is not paid for by insurance 
company or Medicare, even though it does improve care and 
reduce the medical costs for the whole system.
    The benefits for our office have been, you know, longer 
stacks of papers. We have information our fingertips. Any 
doctor who calls me I have information immediately at hand. The 
same when patients call me, I have patient's immediately at 
hand to discuss with them about their care.
    It is much more easy to manage a diabetic or a chronic care 
patient's care and to keep track of those results to improve 
quality of their care.
    The technology does not come cheap, though. We are fairly 
typical among users of the electronic health record. Our 
initial cost was about $50,000 and annually we spend about 
$10,000 for software upgrades, hardware, etcetera.
    Far more significant to the actual financial cost, this 
tool has cost me a lot of time and effort. It is a very 
complicated system. As those of you who hate setting the clock 
on your VCR can only imagine the time and expense and time it 
takes to organize and coordinate the medical records. We are a 
complex office to start with and the computer makes it even 
more complex. So we have learn this and develop it so that it 
works for us.
    Because of dwindling and third party reimbursements, which 
in our market is dominated by a few powerful insurers, we have 
found ourselves with progressively shrinking incomes. 
Therefore, the system upkeep has landed in my hands. Computer 
consultants charge about $150 an hour for their services. 
Currently that is more than three times more my hourly income. 
Five times more if you calculate the time and effort to put 
into the electronic work records and with paperwork, phone 
calls, etcetera. So I have to do all of the care of our 
computers.
    As these systems become more widely adopted, costs will 
eventually decrease. But in order to accelerate adoption, the 
AAFP recommends that Congress work to provide financial 
incentives for small to medium size practices, and; (2) 
establish federal standards of interoperability, and; (3) 
support technical assistant programs to help small practices 
through the cycle of selecting, implementing and redesigning 
their work flow. We can use all the support we can.
    Thank you.
    [Dr. Normile's testimony may be found in the appendix.]
    Chairman Akin. Thank you, Chris. You actually redeemed some 
of your time there. You should get extra points for that. And 
we appreciate your interesting testimony.
    Now we have been joined by my very good from Indiana, 
Congressman Mike Sodrel. We are just going to finish the 
hearing from the witnesses and then we will have things open 
for questions, Mike, in just a minute or so.
    Our third witness, Mr. Jack Price is Vice President of 
Service for HIMSS. Is that His Majesty's Secret Service or 
something? Analytics from Melford, Delaware. Maybe that is not 
exactly what it means, but we are glad to have you just the 
same, Jack.

STATEMENT OF JACK PRICE, HEALTHCARE INFORMATION AND MANAGEMENT 
               SYSTEMS SOCIETY, HIMSS ANALYTICS.

    Mr. Price. Well, thank you very much, Mr. Chairman and the 
Ranking Minority Member Bordallo and distinguished members. 
Thank you for allowing me to appear before this Subcommittee.
    As Mr. Chairman stated, HIMSS is the Healthcare Information 
and Management Systems Society and HIMSS Analytics is a 
research arm associated with HIMSS.
    My role is that I lead a lot of research projects, produce 
surveys in order to routinely obtain data that is critical to 
efforts to improve the quality and cost efficiency of patient 
care.
    One of these surveys that I'm currently working on right 
now is we are interviewing 2500 physician offices across the 
country. And of these 2500 offices we have found out that when 
we ask them if they had practice management system, the answer 
was always 100 percent yes. We asked them if they had an 
electronic medical records system, we found out that only 26 
percent of those offices answered yes.
    And when we further drilled down and asked the other 70 
some percent if they plan on purchasing one in the next two 
years, the answer was no. So we are very interested in why they 
did not want to purchase that EMR when all the evidence 
suggests that on the contrary there are tremendous benefits and 
return on invest from purchasing an electronic medical records 
system.
    And in healthcare we look at ROI two different ways; the 
soft side which is more associated with looking at patient 
safety factors, improved communication and the ability to 
improve clinical processes. We also look at hard ROI, which is 
really associated with things like reduction in material and 
resource expense, improving patient flow, therefore increasing 
revenue. And also improving billing improvements so you can 
capture more revenue that way.
    So, you know, when you look at hard ROI, when you look at 
charts they can be seen on a clinic's computer and patient 
encounters can be documented in a few mouse clicks. The flow of 
patients through a clinical environment changes dramatically 
and as a result, volumes of patients can be increased and then 
also as a result of that, more revenue can be achieved.
    EMRs also reduce the need for paper, and that is one of the 
big pushes for EMR. So you eliminate that paper trail. And when 
you do that you can also eliminate the number of transcribers 
that are responsible for having to do the transcription. It can 
be automated by the physician.
    And so you can also reduce the amount of space that it 
takes to actually store these tons of medical records that are 
out there.
    So there are many benefits along a hard ROI perspective. 
And it also provides a very easy way to capture data that 
normally could not be captured for billing and submitting it 
electronically to the payors.
    So from the standpoint of a small business practice, we see 
many advantages from using EMRs. And so clinics have reported 
doubling or even tripling their case loads with corresponding 
jumps in revenue and with only marginal increases in staffing. 
And at the same time many report that they more easily pass 
regulatory audits than before.
    And after EMR implementation practices see decreased 
medical liabilities, they see more accurate and thorough 
documentation, enhanced patient care and improved quality of 
review.
    Patients also no longer must wait to see a physician. And 
so the patient satisfaction increases dramatically as well.
    However, as the results of our recent survey pointed out, 
many providers are still reluctant to invest in EMR technology. 
And one reason may be the fear factor associated with these 
enormous startup costs and the cost of the software, hardware, 
implementation, training and support. And you also have to 
realize that many physician practices do not have that support 
staff that hospitals have when they implement EMR. So a lot of 
it falls on the physicians, as we have heard in previous 
testimony.
    So the amount associated with implementation is a daunting 
and can be a very disruptive task for a practice. And perhaps 
one of the biggest barriers to overcome is really more of a 
resistance to change itself.
    But we see ambulatory care clinicians who have implemented 
EMRs really have no shortage of advice for their colleagues. 
And one of the things that we suggest is that these physicians 
continue to be champions and offer a valuable experience, 
hands-on experience to those physicians that really need to 
grasp EMRs and move forwards. So for small healthcare groups 
considering EMR, this is a very valuable resource and must be 
tapped.
    So with that I will say on behalf of HIMSS and HIMSS 
Analytics thank you again, Mr. Chairman and Ranking Minority 
Member Bordallo for the opportunity appear before this 
Subcommittee.
    Thank you.
    [Mr. Price's testimony may be found in the appendix.]
    Chairman Akin. Thank you very much. And also doing a great 
job on time there for us.
    The staff that put the hearing together because of the 
nature of this Committee, focused a lot of it on small 
business, which is appropriate, particularly the small business 
of the smaller practices and things. I guess the two questions 
that sort of jump out at me, and they are partly small business 
related but partly just in general on these medical records, I 
would like to toss them out to any of the three of you that 
want to take a shot at either of these questions.
    The first one it seems like, you know I used to work for 
IBM. It seems like there is a technical question as to what 
software you use and what sort of format that you use in 
transmitting medical information. And I have heard there are 
some different theories. One of them is stand back and wait 
patiently for a couple of years until somebody in the 
government comes up with an absolutely perfect way of doing it.
    The other approach seems to be well you are waiting for the 
government, you will wait forever. Maybe it is a better thing 
just to let free enterprise take over and while there will be a 
little bit of some fitful starts and maybe some competing 
software, competing approaches, it may be a little harder to 
get to some perfectly standardized approach, yet probably the 
market will sort that out faster and more efficiently than 
letting the government do it.
    So if you have a thought on that, or any other thing that 
relates to the problem of how do you format the information and 
make it so that you can talk from a doctor's office to a 
hospital to a hospital somewhere else where somebody is 
vacationing, to get that record. And then the second question I 
have we have got every since the days of AIDS became a 
politically correct disease to protect and everything, we have 
got some very, very strong laws regarding patient privacy. And 
I am just wondering if that gets in the way also of 
transmitting records. You know, Todd lives in St. Louis, works 
in D.C., he is vacationing in Massachusetts and has some sort 
of bad symptoms, goes into an emergency room or something. Can 
Massachusetts pull up the records from St. Louis and 
Washington, D.C., all at once the doctor is making a decision 
with all of the data? And what are the questions in terms of 
the legality of transmitting that information.
    I just wanted to toss out, those are the two main things I 
had. If you could just give me, anybody who wants to take a 
shot at either of those it would be helpful.
    Ms. Magruder. I guess I would comment on the question about 
how much to allow to free enterprise versus government 
interaction. You know, I think for us we have thought that the 
ideal is sort of a hybrid of the two, a combination of sort of 
a public and private partnership.
    The idea behind BJC putting $8 million behind the 
electronic medical record is all the earlier testimony about 
the risk aversion of the physicians and the fact that it is not 
time neutral. And, in fact, in the short term it is costly to 
them in many ways. And so our piece of the investment was let 
us get them over that hump and hold them accountable for none 
of the one time costs, but only the in-office costs.
    Now the reason that we thought that was important was your 
other point, which is that our experience has been that the 
electronic medical records that have been adopted are only in 
freestanding independent office situations and feel to really 
get at the cost effectiveness of care, needed the benefit of an 
interface to the hospitals, the emergency departments, 
etcetera. And so the public/private aspect is that we would 
like to see a situation where people like ourselves seed large 
sums of money and ideally can have a partial match from the 
public sector to inscient that that proliferation really be 
accelerated but with a clear understanding that it is not a 
proprietary product, that it really can continue to move in an 
interoperable fashion and proliferate in the community. And 
that we can serve somewhat as a financing vehicle for the 
physicians that maybe they have to pay back some of it over 
time, but make that less onerous in the long run. So sort of a 
public/private partnership.
    Chairman Akin. The public aspect being that there would be 
some maybe tax incentive or something like that to try to help 
reimburse the hospital some for your investment in that 
technology.
    Ms. Magruder. Exactly. Because honestly one of the things 
that I was up against, I happen to run our physicians 
practices. And most institutions are going to want a product 
that is centric to an institutional approach to things, which 
is often synonymous with not what is in the best interest of 
the physicians. What I really wanted was a product that was 
physician centric that really spoke to the ambulatory 
environment so that physicians would ultimately adopt it and 
find it to be useful.
    So the incentive idea was that hospitals or otherwise are 
not going to readily approach it in the way that really 
inscients a win/win there.
    Chairman Akin. Thank you.
    Chris or Jack, either?
    Mr. Price. I see it as a very complex problem and it does 
require a lot of balancing between what is good for the 
hospital, what is good for the physician offices sometimes. 
And, for example, if you have a system within a healthcare 
integrated delivery s stem that you can push out to your 
physicians, your independent physicians, as we just heard, may 
not really like that type of an approach. And they may want to 
have additional systems which would then put an extra burden on 
the hospital in being able to support a myriad of different 
types of technologies. So that sort of a cost shifting type of 
thing.
    But to get back to your question--
    Chairman Akin. Do you not think that the individual 
physicians would tend to kind of go with the main hospital they 
work with, though, from a data processing point of view?
    Mr. Price. They could or they could be in a scenario where 
they are admitting patients to a number of different competing 
facilities, and that could create some problems, too.
    Chairman Akin. So now maybe you got putting patients into 
three different hospitals, each one is on a different system, 
and now you really got a headache?
    Mr. Price. And some of that drives some of the work that is 
being done with the regional health information organizations 
in order to ensure that we have this level this communication 
between different organizations. So there is great work that is 
being done with creating standards, but a lot of it ends up not 
being the physical standards as you were speaking to earlier, 
but a lot of it is related to sort of like translating. If I am 
speaking Spanish and they are speaking English, how do I 
translate between one organization and another? Because what I 
call a CBC may not be called a CBC in a system that we are 
trying to communicate with.
    So there are a level of problems that complex that we are 
trying to work through. But I think over time we will reach a 
point where we can do those types of transmissions very easily.
    Chairman Akin. In answer to my other question, do you think 
it is a good thing just to let the hospitals and doctors work 
on this just in the free side of things instead of saying 
``Hey, hold everything. The government in D.C. is going to come 
up with a--''
    Mr. Price. No, I do not. And I say that simply because I do 
not think that that is always going to be a priority for those 
organizations. Because you are going to see a competition for 
capital and there is going to be much more money being shifted 
to buying new MRIs and things of things of that nature, and 
there is only a limited amount to spend.
    Chairman Akin. So you are saying that you do think that 
government should be coming up with sort of a standard format 
for the transmission of data?
    Mr. Price. The government is working on and through 
certification groups is working on standard formats.
    And also I believe that the payors are going to have to 
play a significant role in this just so that we can find some 
other opportunities to help fund the physicians as they start 
up these practices. There may also be some relaxation of START 
that has to happen in order to eliminate the issues and things 
of that nature.
    Chairman Akin. Go ahead.
    Dr. Normile. You know I think that certainly there should 
be a national situation. This is something where we all need to 
work together, LabCorps and different labs we use are national 
organizations. To be able to communicate with one hospital 
group and not another just is not going to work. We need to 
have something that will work for everyone. And I can 
communicate to a doctor in New York and California just as well 
as next door.
    Chairman Akin. I think we are okay time wise.
    I assume that right now are there vendors that have 
software packages? Is that what you went shopping for, Joan?
    Ms. Magruder. Yes, we did. We went with a vendor called 
NextGen. There are lots of vendors, I think several of whom are 
very credible.
    I think you asked a question earlier about inferentially 
whether the software was where it needed to be. I think the 
software, in and of itself, is reasonable as a starting point. 
But I think that the real key is that, again, it remains mostly 
a silo technology in freestanding physician offices. It is 
difficult enough to get individual offices to go up. I think 
what we really need to get to is the integration of all 
healthcare providers. And I think that that's really going to 
cause some alignment of incentives.
    I think the payors have to pay a key part of this. I think 
that if we are going to advocate transparency, which is part of 
what this will do for us, we need to make sure that the payors 
treat that as a positive and appropriately. And so I would love 
to see a situation where physicians who have been willing to 
step up are in fact rewarded for doing so and not at risk for 
things going on a website about their information because they 
were--
    Chairman Akin. The first to stick their head up?
    Ms. Magruder. Exactly. Exactly.
    Chairman Akin. Okay. Sounds good.
    Dr. Normile. Personally my experience has been, you know 
this technology really is almost there to the point where it is 
a break even situation for me. I think it still has a ways to 
go.
    Chairman Akin. Okay. Anybody want to comment on the second 
part of the question about the privacy of information 
transmitted? Is that a problem or is that no sweat?
    Mr. Price. No. It is a problem. It is a problem in the 
sense that organizations are very aware of what they need to do 
to protect that information. And, in fact, some of that has 
driven the way some RHIOs have designed their architecture so 
that information is not resident in anyone, let us say, 
database and that you have processes that can go out through 
secure networks and be able to pull information from these 
different locations where a patient may have been at some point 
in time.
    So it is at the forefront of every organization in terms of 
addressing security, internally and externally.
    Chairman Akin. Are you saying that that is being built into 
a lot of the programs in the system's design?
    Mr. Price. It is being built into software programs. It is 
being built into physical safeguards for facility's procedures, 
policies. Auditing is taking on a whole new front. I mean, a 
lot of this really started with HIPAA. But it is just the right 
thing to do, as we all agree, to protect the privacy of 
individuals.
    Chairman Akin. Thank you all very much.
    And now I will turn to my good friend, Mike, did you want 
to ask some questions?
    Mr. Sodrel. Yes. Thank you, Mr. Chairman.
    I am certainly not a computer wiz, did not grow up in the 
era, but I ran a business before I came to the Congress. And, 
in fact, this is the first time I have ever served in elective 
office. Ad some of the questions that I have been asking of the 
American Medical Association, some other doctors I have talked 
to about interoperability. You know, I mean how do you get a 
system that talks nationwide and talks to the providers and the 
payors and everybody else might be appropriate. And the answer 
I get is, no offense, Doc, but they said doctors are kind of 
like to herd cats. Unless the government provides some carrots 
and sticks to the process, everybody will go out and buy 
independent systems and they are not necessarily going to talk 
to each other or reach the desired end.
    And it is kind of a follow up on the Chairman's question, 
how do we provide the carrot and stick for the industry to come 
up with a standard software practice and standard language and 
standard system so that they can talk to each other, both the 
hospital to the insurance company to other appropriate 
entities? I mean, how do you think we should be approaching the 
problem?
    Dr. Normile. The primary think I think would be to approach 
the software company that produce these and if they start 
seeing that there is a common way to communicate, doctor's 
practices will want to get on and involved with that. And 
doctors, we all want to be able to communicate and that is 
vital to our practice. So, you know, I do not think the issue 
is really hurting as far as the patient. It is a matter of 
getting the software companies to provide it.
    Mr. Price. Dr. Brailer is currently heading up a lot of 
different approaches that are requiring certification 
processes. And what we are hoping is that over time software 
vendors will have to adhere to certain certifications. And part 
of that certification will require this interoperability issue 
to be addressed.
    So these types of things are happening right now. But in 
the meantime, you still have to conduct business. So there is 
still organizations that have to make these types of purchases 
and hope for the best in terms of being able to communicate 
outside the confines of their office.
    We have addressed a lot of that with HIPAA for the 
financial side of the equation, and it may be beneficial to 
have things that are similar on the clinical side to be able to 
share that type of information back and forth. But a lot of 
that is like the train is already moving on that.
    Mr. Sodrel. The other thing that occurs to me is you lose a 
paper trail when you go to electronic records that a hot site 
is going to be really important. I mean if you look at Katrina, 
Rita, tornados go through the midwest. You are a doctor and the 
system is gone in an F3 tornado, those records need to be 
someplace else on a clone or some system that is running 
parallel where you can get them back up in a short period of 
time. So it seems to me that is a risk as well of losing the 
data.
    Dr. Normile. Those are becoming more available where you 
can copy information to another site. And certainly in our 
practice we copy all the data to a tape and I take it home at 
night with me. It is one of our biggest fears that our system 
would go down. It would be devastating. But we do have backups 
for patient information. And all that information is on a tape 
and I have it at home.
    Ms. Magruder. I think the other form of redundancy goes 
back to this issue of whether these EMRs are going to be self-
contained in an ambulatory setting or connected to the in-
patient settings. Because you then, obviously, have another set 
of redundancy.
    In our circumstance we are trying to create the backbone 
and allow physicians to choose to attach to it or not. And so 
whether they have the option to back it up in their office and 
we then have the backup, if you will, at the organizational 
level. So that becomes sort of a double protection.
    I do think, though, that whatever we do in this regard if 
we really think we want to get at sort of the cost 
effectiveness and the universal care aspect, I think we are 
going to have to figure out a way to get the in-patient centers 
to get moving, not just the physician setting. Because right 
now there are so many things that are being vested upon in the 
in-patient setting, this is really not a top priority. And so I 
think that that is something we just do not want to lose track 
of as we try to think that we are targeting a very universal 
comprehensive record. I think that will be important.
    Mr. Sodrel. Thank you, Mr. Chairman.
    Chairman Akin. If I could just do a follow up question 
about Mike was saying. At least it seemed like to me, maybe one 
thing that might be helpful, maybe this has already been done, 
but the information that you are going to be collecting if you 
could define what the fields are? In other words a treatment 
date and have some common definition for what that is or 
whatever the other basic things that would go with it 
regardless of what software, how to design the database. If 
your definitions of what this, that and the other term meant, 
it would seem like it would make it much, much easier to make 
things interoperable if you are using a common set of 
definitions. Has that been thought of is that already being 
taken of or is that something that maybe some sort of national 
group could help with?
    Mr. Price. I believe SNOMED, which I can't remember exactly 
what that stands for, but it is a common vocabulary that is 
being looked at as one of the key sort of integration languages 
to use for this interoperability. This sort of translation 
between the Spanish and the English. But get everybody to speak 
the same using SNOMED vocabulary in the way they define 
diseases, the way they--
    Chairman Akin. Is that a commercial--
    Mr. Price. Yes. It has been used in pathology for a number 
of years. Yes.
    Chairman Akin. So it is one that is already somewhat 
established and it is almost one that is starting to take on a 
sort of standard in and of its own, to some degree?
    Mr. Price. Right. And there is discussion about other 
formatting types of capabilities whether it be a continuity of 
care record or some other mechanism for being able to ensure 
that these data elements were defined properly and they are the 
same, whether you are talking in an ambulatory and acute care 
setting.
    Chairman Akin. Okay. That covers it pretty well.
    Okay. I did not have anything else particularly. I just 
wanted to thank you all for coming in.
    We have broken our witnesses into two panels and if you 
would like to stick around, you will see that we have saved an 
interesting witness for our second panel here, a colleague of 
ours, a medical doctor who is a friend of ours and somebody 
from the city of Atlanta who we like to harass, but in a 
friendly sort of way.
    Thank you all so much for your testimony. And we will just 
proceed right into the second panel.
    Mr. Price. Thank you.
    Ms. Magruder. Thank you.
    Chairman Akin. Welcome to the Subcommittee, Congressman.
    Mr. Gingrey. Thank you, Mr. Chairman.
    Chairman Akin. Congressman Phil Gingrey is also a doctor 
and a honorable, and from according to my notes, Georgia 11. I 
have been there, but I did not know it was 11. But we are 
delighted to have you, Phil. If you would like to proceed. I 
understand that you have some legislation that you are working 
on, and we are all ears. We would like to hear what you have 
got.

STATEMENT OF THE HONORABLE PHIL GINGREY (GA-11), U.S. HOUSE OF 
                        REPRESENTATIVES

    Mr. Gingrey. Mr. Chairman, thank you very much. I didn't 
realize that a panel could be a panel of one, but I am proud to 
be here not as a VIP or a DV, as a doctor member of the House. 
And it is an honor to be here before this Subcommittee, 
Chairman Akin, Representative Sodrel. I know Ranking Member 
Bordallo, a very good friend, and other members of the 
Regulatory Reform and Oversight Subcommittee.
    I have got some written remarks, Mr. Chairman. I would like 
to go through those and submit them in their totality for the 
record.
    Chairman Akin. Without objection.
    Mr. Gingrey. But let me just say that on behalf of the 
citizens of Georgia's 11th Congressional District, and I thank 
the Chairman for visiting in my District and holding a field 
hearing, thank you all for allowing me the opportunity to 
testify before you today.
     Every day we read in the headlines about the rising cost 
of healthcare and what it means to every American in this 
country. There are many ways to tackle the problem of 
skyrocketing healthcare costs, but today I am here to focus on 
healthcare information technology, just as the previous panel. 
Why does Congress need to be invested in the adoption of 
healthcare information technology? Well, in September of 2005 
the RAND organization released a study that showed how a health 
information technology system that is implemented correctly and 
as the previous panelists said, widely adopted could save the 
American healthcare system more than $162 billion annually.
    Since we all know the tremendous stress our healthcare 
system is currently operating under, these savings alone are 
very compelling justification for congressional involvement. 
Even more important than saving money. Integrating technology 
into our healthcare system will reduce medical errors and save 
lives. However, it was not until I went out into my District, I 
met with physicians like the physician from Missouri and 
representatives from the health IT industry, I realized the 
answer to the question of congressional action.
    The key to the RAND report and my personal research centers 
around the concept of, as I said, widely adopted. And this is 
why we are here today. What role can and should the government 
play in ensuring healthcare information technology is widely 
adopted?
    There are a variety of thoughts, opinions and pieces of 
legislation centered around this particular question. The RAND 
study simply states that in order to take full advantage of 
this potential savings, we needed incentives for physicians to 
buy quality systems and integrating system. So the question 
becomes not only what would be the most effective way to 
incentivize physicians, but what is the most fiscal responsible 
way to incentivize the physicians.
    I was anxious as a physician member to go out and visit 
doctor's offices that were already utilizing health information 
technology to see what differences it makes out in the real 
world. And make no mistake about it, the physicians in the 
trenches have already lead the charge. You know, I know the 
government is very important, that we get it right. But there 
are a lot of systems out there, Mr. Chairman, that are already 
operating and operating well. It was just three short years ago 
that I stopped practicing medicine. I remember vividly the 
overwhelming burden of administrative paperwork. It robbed 
physicians of time with their patients, literally taking away 
from them the real joy of the profession. And what I saw in a 
paperless medical practice when I went out recently was just 
amazing to me.
    I visited a three doctor OB/GYN group, that is my 
specialty, in my District, Carrolton, Georgia. And they had 
purchased their electronic health records system in 2002. We 
are talking four years ago.
    I was able to watch Dr. Rick Martin of West Georgia OB/GYN 
as he demonstrated the established routine he follows during a 
patient visit utilizing his computer tablet. Not a paper chart. 
He stated that the vendor company that they had worked with, 
they had worked very hard to ensure the process flowed to his 
liking and the words and the phrases that he used most 
frequently were utilized in the chart template.
    It was amazing to me how efficient the system was in 
documenting a patient's chart and any necessary tests and 
imagines, all at the point of care when it was needed. I saw 
how revolutionary health IT was to the health care world. It 
transfers how physicians do business on a daily basis by 
streamlining the process, giving them the tools and the 
information they need when they need it.
    It even left me thinking if this political career work out, 
I might want to go back, jump into medicine and 
enthusiastically embrace this new paradigm.
    What I heard from my discussions were how satisfied the 
customers were. The physicians I spoke with are enjoying a 
higher quality of life, more efficiency in follow up with their 
patients, the flexibility to complete charts and, indeed, even 
take calls from the comfort of their homes.
    The office managers spoke emphatically about the almost 
immediate increased revenue from automating their coding and 
billing process. Not only did they receive payment from 
insurance companies, third party payers we call them, quicker 
but they received more accurate payments. An increase in 
revenue to a physician's bottom line is one of the biggest wins 
in purchasing electronic health record system. The system not 
only automatically codes the patient's visits, but correctly 
codes the visits to ensure the physician is reimbursed 
accurately for the services rendered.
    Early in their career physicians learn quickly that it is 
easier to actually down code a visit than to submit a claim 
that ends up being rejected by the insurance company which 
requires your office to then resubmit the claim, wasting 
valuable staff time and taking money away from the practice. 
But different sections in the healthcare system and the Federal 
Government that there are numerous, maybe too many hurdles 
preventing physicians from practically incorporating health IT 
into their offices. These concerns range from the time and 
energy required of physicians to learn a new system, teach an 
old dog new tricks, a potentially unsustainable decrease in 
productivity over the short haul and a natural apprehension 
that comes with any large financial investment. However, I want 
to present an example of what one practice saw as a return on 
investment in their first year of purchasing a complete health 
IT system.
    I would like to submit for the record an example 
administered by Microsoft Windows Service System, Mr. Chairman. 
They performed a customer solution case study on a five doctor 
OB/GYN practice in New York. For this practice implementing an 
integrated electronic health record system has cut down on the 
administrative work required by each doctor by one hour a day. 
And it has allowed them to see an additional 25 patients each 
week and given them a first return on investment of $400,000.
    It is for this particular reason that I believe the best 
thing Congress can do is to create incentives for physicians to 
incorporate health IT and then get out of the way.
    And, Mr. Chairman, you alluded to it at the beginning of my 
testimony. This is why I introduced HR 4641 the Adopt Health IT 
Act. This is what it does. It creates these incentives by 
increasing the deductions offered under Section 179 of the tax 
code for health care providers that purchase an EHR system.
    I have heard from physicians and industry alike that 
Section 179 is a strong incentive for their decision to invest 
in health IT. But under the current law the maximum deduction 
is not adequate to increase adoption among all physician 
groups. Under current tax code small businesses can deduction 
around $100,000 of the cost of a qualified business expense 
that are placed into service in that tax year.
    Basically what my legislation does is it increased this 
maximum deduction in the first year from $100,000 to $250,000, 
therefore creating a more realistic incentive to spur adoption 
among physician practices of all sizes. Current small 
businesses have a maximum threshold of $400,000 for qualified 
equipment purchases in any given year. My legislation would 
further increase that amount to $600,000, again, narrowly 
defined to include only those healthcare professions that 
purchase an EHR system.
    The logic behind the idea, Mr. Chairman, is that physicians 
like all small business owners look at what the tax code can 
offer them as they consider purchasing equipment for their 
business. And HR 4641 allows section 179 of the tax code to 
better represent the actual cost of EHR systems.
    For example, the cost of a system for an average practice 
including four to six physicians, like a single specialty OB/
GYN practice, can be as much $200,000. This then restricts what 
other medical equipment that office can purchase that year. So 
that is why we increased the overall amount from 400,000 to 
600,000.
    By appealing to a physician's business instinct and 
allowing the tax code to provide incentives we can create a 
much more effective way of getting healthcare information 
technology into every physician's office around the country. 
These incentives will work far better than simply dumping 
federal grants into the healthcare system.
    So, Mr. Chairman, in closing I want to again express my 
gratitude for this opportunity, respectfully ask for your 
consideration of the initiative that I am laying out to you 
this afternoon.
    Mr. Chairman, I am prepared to respond to any questions or 
comments you or Representative Sodrel or other Members may have 
about the legislative proposal that I am recommending.
    [Congressman Gingrey's testimony may be found in the 
appendix.]
    Chairman Akin. Thank you for your testimony.
    I gave you a little extra time because you are a 
Republican.
    Mr. Gingrey. Thank you, Mr. Chairman. I appreciate that.
    Chairman Akin. But I thought your comments were very 
helpful and in good order. You came to the end what I was going 
to ask, just some sort of basic numbers. One of these systems 
can cost you 200,000 bucks if you are a physician. Is that 
hardware and software or is that--
    Mr. Gingrey. Mr. Chairman, that is right. That is hardware 
and software. And that would not be an individual physician 
cost, but a group of about five members; that is about what 
that cost would be. And, of course, it is a first year cost but 
it does include an update and a training part in addition to, 
as you point out, the hardware and software.
    Chairman Akin. So that is basically the package to get you 
up and going in a way?
    Mr. Gingrey. That is indeed the package to get you up and 
going and actually probably covers a couple of three years of 
upgrades to the software system and hand-holding, if you will, 
training of the office personnel, not just physicians. But the 
front and back office people.
    Chairman Akin. You say that is a five doctor group, maybe?
    Mr. Gingrey. That would be for about a five doctor group.
    Chairman Akin. What would happen if you were just one or 
two or something? Would it start to get pretty iffy in terms of 
cost justifying it?
    Mr. Gingrey. A great question, Mr. Chairman. The way these 
systems work. of course, is you would not be able to divide 
that six member group by six and come up with a cost of 
$30,000. It is going to be significantly more than that for 
just one person. And there are those one and two person 
practices out there, believe it or not, that just like to work 
independently. Maybe it is an OB/GYN, maybe it is a family 
doctor that is making house calls. But they need, and I think 
the previous panel would agree, that we need to make sure that 
everybody is into this system and can afford to do that because 
the chain is only as strong as your weakest link. And if we do 
not have those small group practices that really cannot afford 
to come up $75,000 to $100,000, let us say for a smaller group, 
they are not going to do it. And patients lives are going to be 
in jeopardy because of that. So this is an opportunity to 
incentivize them. It is not the government necessarily giving 
out grants and deciding who needs some money, is it a big 
hospital system that needs a big government grant or is it the 
small doctor situation. And I am afraid if we look at it from 
that perspective, most of the time the big doctor organizations 
will win out in any grant proposal. And they probably can 
afford to invest on their own a lot better than a small medical 
doctor group can.
    Chairman Akin. Okay. Thank you very much for that. I think 
that made a couple of things clear.
    Let me just ask if you have different physicians motivated 
to use this technology, now they are getting a tax break in a 
sense to try to get this thing up and going, are you going to 
have any trouble with just the format of the medical records so 
that you are going to have all kinds of different systems that 
do not really work together. And have you thought about that, 
or is that something where there is enough standardization 
going on now that increasingly they are going to be able to 
talk back and forth?
    Mr. Gingrey. Mr. Chairman, that is a hugely important 
issue. And, of course, the previous panel as I caught the end 
of their testimony talk about it. And Dr. Brailer, who is the 
National Coordinator for Healthcare IT under Department of HHS 
is working as far as credentialing and making sure that we get 
it right, that the RHIOs are established and that there is 
connectivity. I am kind of like Representative Sodrel. I am not 
a computer wiz kid and I have got to learn a lot about this and 
the acronyms and that sort of thing. But it is very, very 
important that the software companies that have been involved 
in this business for six years now, like the company in 
Carrolton, Georgia that have developed a very good software 
program, kind of unique maybe to the general surgery specialty 
or the OB/GYN specialty, we cannot all of a sudden have the 
government create a program that carves them out when many of 
these physicians, they are out there, they have marketing 
people, they have salesmen that are selling these programs and 
doctors that have bought in at about an average price of 
$200,000. We have to make sure that they're not left on the 
sideline holding a bill of goods that now becomes worthless. It 
is very important that we work together with them.
    Chairman Akin. Is it your understanding then that there is 
an ongoing cooperation between the software developers and 
people defining what the fields mean? So that we are talking 
the same language, more or less?
    Mr. Gingrey. Well, it is my understanding, Mr. Chairman. I 
think that is true. But I think there is an angst and heartburn 
among some of these vendors who are sort of on the outside 
looking in and they are concerned. And obviously they want 
their member of Congress, you, Mike Sodrel, myself to make sure 
that we represent them at the table. And that is a part of why 
I am here, and that is part of why I have introduced this bill.
    Chairman Akin. Thank you.
    And, Mike, would you like to ask questions?
    Mr. Sodrel. I think you stole all my good questions, Mr. 
Chairman.
    Thank you.
    Chairman Akin. Well, I really appreciate your leadership on 
this and particularly the fact that you are coming at it from 
being a doctor and understanding what those practices are like. 
It is really important.
    It sounds like you have got a pretty good balance, too, 
between some sort of structure that we are trying to provide 
and at the same time letting the market develop products.
    I just have one last question. How far away are we on not 
just your OB/GYN office talking to the local hospital, but my 
wife being off on vacation somewhere and their being able to 
tap in so that the doctor making a decision away from home has 
the same data that her doctor would have at home?
    Mr. Gingrey. Mr. Chairman, a great last question. I am so 
glad you asked that. You know, the President has said that he 
wants to see a fully integrated operational system by I think 
the year 2014. I really believe we can and desperately need to 
do it before then. At $162 billion cost savings per year, that 
is a lot of money. That could pay for a lot of Head Start 
programs and other things that we want to do that we maybe 
cannot afford to fund as fully as we would like to.
    It is hugely important that we get this done sooner rather 
than later, as you point out. I think we can do it. I think we 
are on the track to do it. I hope that we can get this done 
maybe within five years.
    And you mentioned an example of your wife. I was just 
recently in Antarctica on a trip and I was able with my 
American Express card to get U.S. dollars so I could buy some 
souvenirs at the New Zealand Station. And that was a wonderful 
thing. And yet I could not help but think if I had slipped down 
and fallen and hit my head on the ice, there was plenty of that 
there not much grass, and gone to an emergency facility and was 
unable to speak, you know they would not know that I had open 
heart surgery three years ago and I am on four medications and 
that I am a little goofy to boot that they would know how to 
treat me. And I think it is just so important that we are able 
to do that. And even more so in, let us say, a country where 
they do not speak your language. And that is why we really need 
to get this done.
    Chairman Akin. Well, I really appreciate the wisdom of your 
answers, Congressman, and also the courage of a southern boy to 
go all the way to Antarctica. It would not have thought it 
could have happened.
    Thank you.
    Mr. Gingrey. Thank you, Mr. Chairman. Thank you, 
Representative Sodrel and the Committee. I appreciate the 
opportunity to present to you.
    Chairman Akin. Committee's hearing stands adjourned.
    [Whereupon, at 3:07 p.m. the Subcommittee was adjourned.]
    [GRAPHIC] [TIFF OMITTED] 28571.001
    
    [GRAPHIC] [TIFF OMITTED] 28571.002
    
    [GRAPHIC] [TIFF OMITTED] 28571.015
    
    [GRAPHIC] [TIFF OMITTED] 28571.016
    
    [GRAPHIC] [TIFF OMITTED] 28571.017
    
    [GRAPHIC] [TIFF OMITTED] 28571.010
    
    [GRAPHIC] [TIFF OMITTED] 28571.011
    
    [GRAPHIC] [TIFF OMITTED] 28571.012
    
    [GRAPHIC] [TIFF OMITTED] 28571.013
    
    [GRAPHIC] [TIFF OMITTED] 28571.014
    
    [GRAPHIC] [TIFF OMITTED] 28571.003
    
    [GRAPHIC] [TIFF OMITTED] 28571.004
    
    [GRAPHIC] [TIFF OMITTED] 28571.005
    
    [GRAPHIC] [TIFF OMITTED] 28571.006
    
    [GRAPHIC] [TIFF OMITTED] 28571.007
    
    [GRAPHIC] [TIFF OMITTED] 28571.008
    
    [GRAPHIC] [TIFF OMITTED] 28571.009
    
    [GRAPHIC] [TIFF OMITTED] 28571.018
    
    [GRAPHIC] [TIFF OMITTED] 28571.019
    
    [GRAPHIC] [TIFF OMITTED] 28571.020
    
    [GRAPHIC] [TIFF OMITTED] 28571.021
    
    [GRAPHIC] [TIFF OMITTED] 28571.022
    
    [GRAPHIC] [TIFF OMITTED] 28571.023
    
    [GRAPHIC] [TIFF OMITTED] 28571.024
    
    [GRAPHIC] [TIFF OMITTED] 28571.025
    
    [GRAPHIC] [TIFF OMITTED] 28571.026
    
    [GRAPHIC] [TIFF OMITTED] 28571.027
    
    [GRAPHIC] [TIFF OMITTED] 28571.028
    
    [GRAPHIC] [TIFF OMITTED] 28571.029
    
    [GRAPHIC] [TIFF OMITTED] 28571.030
    
    [GRAPHIC] [TIFF OMITTED] 28571.031
    
    [GRAPHIC] [TIFF OMITTED] 28571.032
    
    [GRAPHIC] [TIFF OMITTED] 28571.033
    
    [GRAPHIC] [TIFF OMITTED] 28571.034
    
    [GRAPHIC] [TIFF OMITTED] 28571.035
    
    [GRAPHIC] [TIFF OMITTED] 28571.036
    
    [GRAPHIC] [TIFF OMITTED] 28571.037
    
    [GRAPHIC] [TIFF OMITTED] 28571.038
    
    [GRAPHIC] [TIFF OMITTED] 28571.039
    
    [GRAPHIC] [TIFF OMITTED] 28571.040
    
    [GRAPHIC] [TIFF OMITTED] 28571.041
    
    [GRAPHIC] [TIFF OMITTED] 28571.042
    
    [GRAPHIC] [TIFF OMITTED] 28571.043
    
      

                                 <all>
</pre></body></html>
